              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                        June 5, 2013
Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Controls and Audit Follow-up
               Office of Financial Management

               Debra E. Sonderman
               Director, Office of Ac      ·slt?on and Property Management

From:         Charles Ham    ~·
              Regional M

Subject:      Verification Review of Recommendations for the Inspection Report,
              "Department of the Interior (DOl) Fuels Consumption Data is Incorrectly
              Reported" (C-IS-MOI-0008-2008)
              Report No. C-VS-MOI-0005-2013

        We have completed a verification review of the two recommendations presented in the
inspection report noted above. Our objective was to determine ifDOI implemented the
recommendations as reported to the Office of Financial Management (PFM), Office of Policy,
Management and Budget. The responsible office for implementing the recommendation is DOl's
Office of Acquisition and Property Management (PAM). PAM provided PFM with supporting
documentation, and PFM reported to us when PAM had addressed the two recommendations in
the subject report. Based on our review, we concluded that PAM has not fully implemented
Recommendations 1 and 2.

Background

         In November 2008, our inspection report, "Department ofthe Interior (DOl) Fuels
Consumption Data is Incorrectly Reported" stated that Executive Order (E.O.) 13423,
"Strengthening Federal Environmental, Energy, and Transportation Management," requires
Federal agencies to decrease petroleum fuel consumption by 2 percent annually, while increasing
fleet alternative fuel consumption by 10 percent annually. DOl reported a 6 percent decrease in
the consumption of petroleum-based fuels from fiscal years (FYs) 2005 to 2007. Our inspection
report determined that DOl misreported its fuel consumption due to errors with bureaus' fuel
data. Based on corrections to known errors, we estimated that DOl may have increased its
consumption by as much as 22 percent for that period. We also questioned the Department's
poor data quality, which led to DOl's reported 58 percent increase in alternative fuel
consumption.




                        Office of Audits, Inspections, and Evaluations I Lakewood, CO
        In a memorandum dated January 16, 2009, DOI’s Associate Deputy Secretary responded
to the inspection report concurring with the two recommendations. On March 2, 2009, we
referred the recommendations to PMB for tracking and implementation.

      On September 24, 2010, PFM reported that upon review of documentation provided by
PAM, it considers Recommendations 1 and 2 implemented and closed.

Scope and Methodology

        The scope of this review was limited to documenting DOI’s implementation of our
recommendations. To accomplish our objective, we reviewed the supporting documentation that
PAM officials provided to PFM to close the recommendations. We discussed PAM’s actions
taken on each of the two recommendations and independently verified their implementation. We
did not perform any site visits or conduct fieldwork to determine if the underlying deficiencies
we initially identified were corrected. As a result, this review is not conducted in accordance
with Generally Accepted Government Auditing Standards issued by the Comptroller General of
the United States or the “Quality Standards for Inspection and Evaluation” of the Council of the
Inspectors General on Integrity and Efficiency.

Results of Review

       We found that PAM did not fully implement Recommendations 1 and 2.

       Recommendation 1: Ensure bureau fleet managers perform an in-depth review of the
       FY 2005 FAST [Federal Automotive Statistical Tool] data for each bureau to ensure it is
       as accurate and reasonable as possible.

        We consider Recommendation 1 not fully implemented. On September 22, 2010, PAM
sent the U.S. Department of Energy (DOE) a request to change erroneous data in DOI’s FY 2005
FAST submission. In the request, PAM stated that four bureaus: Bureau of Reclamation, U.S.
Fish and Wildlife Service, U.S. Geological Survey, and Bureau of Indian Affairs (BIA);
reviewed their FY 2005 FAST baseline data and found errors that required corrections.

        We requested information from PAM on how these corrected amounts were computed,
and found issues with the amounts reported to DOE and the amounts provided to us by PAM.
For example, in its request to DOE, PAM stated that BIA had “grossly under-reported the
amount of petroleum-based fuel use in FY 2005” and that the correct amount was 6,244,373
gasoline gallon equivalents. After we requested the supporting information for this number,
PAM explained that the BIA personnel who completed the analysis had retired and that no one at
BIA could retrace their analysis. Despite the information provided to us by PAM, we concluded
that there is insufficient evidence to allow an independent reviewer to replicate the in-depth
review required by the original recommendation.

       Recommendation 2: Request DOE make adjustments in the FAST system based on the
       results of the detailed analysis.



                                               2
         We consider Recommendation 2 not fully implemented. On September 22, 2010, PAM
requested that DOE make corrections to errors in its 2005 FAST baseline data. DOE
acknowledged receipt of PAM’s request and asked that PAM provide additional information for
review before making any necessary changes. We could find no evidence that DOI followed
through by providing this information. As a result, DOE did not make the requested changes in
the FAST database. We spoke with a DOE official who stated that DOE would be willing to
revisit this issue again with DOI.

Conclusion

        Despite the actions taken by the four bureaus and PAM, we consider both
recommendations as not fully implemented. There is insufficient evidence that would enable an
independent reviewer to replicate the in-depth review called for in the original recommendation.
In addition, there is no evidence of follow-through with DOE after PAM's initial request to
revise FY 2005 FAST data.

        We question whether the original recommendations are now feasible given the
underlying data quality challenges and the time passed since the E.O. 13423 baseline was
established. Therefore, we consider both recommendations "Closed—Not Implemented." Rather
than requesting reinstatement of the recommendations, we suggest that the Director, PAM:

        1) Confer with DOE officials to determine mutually acceptable E.O. 13423 baseline
        estimates, and document the basis for these estimates.

       We informed PAM officials of the results of this review on May 21, 2013. PAM officials
agreed with the results of this review.

cc:    Kathryn Bender, Chief of Staff, Office of Acquisition and Property Management
      Willie Davis, Agency Fleet Manager, Office of Acquisition and Property Management
      Nancy Thomas, Audit Liaison Officer, Office of the Secretary




                                               3
